No. ____

In The

Supreme Court of the United States
WHOLE WOMAN’S HEALTH, ET AL.,
Petitioners,

v.
AUSTIN REEVE JACKSON, JUDGE, ET AL.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI BEFORE JUDGMENT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari Before Judgment in the above-titled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 8,984 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 23, 2021,
JULIE A. MURRAY
RICHARD MUNIZ
PLANNED PARENTHOOD FEDERATION OF
AMERICA
1110 Vermont Ave., NW, Ste. 300
Washington, DC 20005
SARAH MAC DOUGALL
PLANNED PARENTHOOD FEDERATION OF
AMERICA
123 William St., 9th Fl.
New York, NY 10038
JULIA KAYE
BRIGITTE AMIRI
CHELSEA TEJADA
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad St., 18th Fl.
New York, NY 10004
LORIE CHAITEN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
1640 North Sedgwick St.
Chicago, IL 60614
DAVID COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th St., NW
Washington, DC 20005
ADRIANA PINON
DAVID DONATTI
ANDRE SEGURA
ACLU FOUNDATION OF TEXAS, INC.
5225 Katy Fwy., Ste. 350
Houston, TX 77007

/s/ Marc Hearron
MARC HEARRON
Counsel of Record
CENTER FOR REPRODUCTIVE RIGHTS
1634 Eye St., NW, Ste. 600
Washington, DC 20006
(202) 524-5539
mhearron@reprorights.org
MOLLY DUANE
MELANIE FONTES
NICOLAS KABAT
KIRBY TYRRELL
CENTER FOR REPRODUCTIVE RIGHTS
199 Water St., 22nd Fl.
New York, NY 10038
JAMIE A. LEVITT
J. ALEXANDER LAWRENCE
MORRISON & FOERSTER LLP
250 W. 55th St.
New York, NY 10019
JAMES R. SIGEL
MORRISON & FOERSTER LLP
425 Market St.
San Francisco, CA 94105
RUPALI SHARMA
LAWYERING PROJECT
113 Bonnybriar Rd.
South Portland, ME 04106
STEPHANIE TOTI
LAWYERING PROJECT
41 Schermerhorn St., No. 1056
Brooklyn, NY 11201
Counsel for Petitioners

